April 19, 2010

ROSS PHILO
EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION OFFICER

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

SUBJECT: Audit Report - Network Security Assessment of the National
         Customer Support Center (Report Number IS-AR-10-007)

This report presents the results of our self-initiated network security assessment of the
National Customer Support Center (NCSC) (Project Number 09RG030IS000). Our
objective was to determine whether network security controls implemented at the NCSC
and associated sites adequately provide for the confidentiality, integrity, and availability
of U.S. Postal Service information resources. This audit addresses operational risk. See
Appendix A for additional information about this audit.

The NCSC supports the Intelligent Mail program and Address Quality function for the
Postal Service. The facility’s mission is to support the Postal Service with an address
quality database, a change of address system, and customer address products to
facilitate the timely and cost-effective coding, sorting, and delivery of the mail.

Conclusion

Network security controls in place at the NCSC may not adequately provide for the
confidentiality, integrity, and availability of Postal Service information resources.
Management can improve information security by implementing patch and configuration
management processes, upgrading and patching database software, and reviewing
server configurations to ensure compliance with Postal Service hardening standards.
Based on our audit results, management began remediating patch and configuration-
related vulnerabilities during the audit.

Operating System and Database Server Vulnerabilities

Administrators did not patch consistently or configure correctly the operating system
and database environments. We xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx The operating system vulnerabilities existed,
because administrators relied on ineffective vulnerability assessments rather than a
Network Security Assessment of                                                                         IS-AR-10-007
 the National Customer Support Center


proactive patch and configuration management process to identify and remediate
missing patches and configuration issues. The database vulnerabilities existed,
because administrators did not upgrade to a version of the Oracle® database software
required to apply the patches. Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx1 xxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx See
Appendix B for our detailed analysis of this topic.

We recommend the senior vice president, Intelligent Mail and Address Quality, direct
the manager, Address Management, to:

1. Utilize the Postal Service patch and configuration management processes to identify
   and remediate missing patches and configuration issues.

2. Upgrade the Oracle database software and remediate the patch-related
   vulnerabilities.

3. Periodically review server configurations to ensure servers comply with applicable
   Postal Service hardening standards.

Web Server Vulnerabilities

Administrators did not harden2 a publicly accessible web server that supports xxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx3x.
Specifically, we identified one xxxxxxxxxxxxxxxxxx4xxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxx.5 Administrators did not identify these vulnerabilities, because
they did not configure the vulnerability management software to xxxxxxxxxxxxxxxxx
xxxx. According to Postal Service policy,6 information resources supported by
networking must be hardened to meet or exceed the requirements documented in
Postal Service hardening standards specific to each platform. xxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx7) xxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.8 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxx9 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

1
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
2
  Hardening refers to the process of implementing additional software and hardware security controls.
3
  The Postal Service and its mailers use MITS. It contains mail-related products and service information as well as a
mailer feedback tool.
4
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
5
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
6
  Handbook AS-805, Information Security, Section 11-3.6, Implementing Hardening Standards, dated November
2009.
7
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
8
  Handbook AS-805, Section 10-3.1 (j), Software Safeguards.




                                                          2
Network Security Assessment of                                                                IS-AR-10-007
 the National Customer Support Center


xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx This data includes
information related to xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxx. Prompted by our audit, administrators modified the application to
remove the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Therefore, we are not making a
recommendation to remediate those specific issues.

We recommend the senior vice president, Intelligent Mail and Address Quality, direct
the manager, Address Management, to:

4. Configure existing vulnerability management software to assess xxxxxxxxxx
   xxxxxxxxxxxxx as required.

Management’s Comments

Management agreed with the findings and recommendations. In response to
recommendations 1 through 3, management will coordinate with the Corporate
Information Security Office (CISO) to develop and implement a patch management
process and standardize NCSC systems with Postal Service hardening standards.
Management implemented a formal patch and configuration review process to ensure
all servers continue to comply with Postal Service requirements. This policy is the
interim methodology intended to keep NCSC systems at the appropriate revision level
and compliant with Postal Service hardening standards. The target completion date for
recommendations 1 and 3 is September 30, 2010. The target completion date for
recommendation 2 is September 1, 2010.

In response to recommendation 4, management coordinated with the CISO to verify the
configuration of the vulnerability management software to ensure it performs web server
assessments according to Postal Service policy. Management completed its proposed
action and requests closure of this recommendation. See Appendix C for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
their corrective actions should resolve the issues identified in the report.

Other Matters – Network Security

We identified xxxxxxxxxxxxxxxxxxxxxxxxxxxxx that could allow an unauthorized person
to access the NCSC network. When notified, management took corrective action to
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


9
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                      3
Network Security Assessment of                                                IS-AR-10-007
 the National Customer Support Center


xxxxxxxxxxxxxxx. Management also updated employee departure procedures to reflect
the requirement to deactivate network connections when an employee or contractor
departs the organization. As a result, we are not making a recommendation to address
this network security issue.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at 703-248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: John T. Edgar
    Deborah J. Judy
    Charles L. McGann
    James D. Wilson
    Sally K. Haring




                                            4
Network Security Assessment of                                                    IS-AR-10-007
 the National Customer Support Center


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The NCSC, located in xxxxxxxxx, is a customer support and software engineering
facility that supports the Intelligent Mail program and Address Quality function for the
Postal Service. Specifically, the NCSC supports applications that facilitate the National
Change of Address and Address Information System Product Fulfillment systems. The
facility’s mission is to support the Postal Service with a quality address database, a
change of address system, and customer address products to facilitate the timely and
cost-effective coding, sorting, and delivery of the mail. In fiscal year 2009, NCSC
products and services generated more than $100 million in revenue for the Postal
Service.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether network security controls implemented at the
NCSC and associated sites adequately provide for the confidentiality, integrity, and
availability of Postal Service information resources. To achieve our objective, we
performed network security assessments using industry-accepted automated software
tools and manual reviews to identify known high-risk vulnerabilities. In addition, we
performed a limited review of physical security.

We performed our assessment from November 30 through December 11, 2009, and
limited our review to xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx residing
on eight subnets assigned to the NCSC. We interviewed key officials and reviewed
applicable Postal Service policies, standards, and procedures. We used manual and
automated techniques to analyze computer-processed data and concluded the data
were sufficiently reliable to meet the report objectives. We provided management with
detailed results on January 22, 2010.

We conducted this performance audit from September 2009 through April 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusion based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              5
Network Security Assessment of                                                                 IS-AR-10-007
 the National Customer Support Center


                              APPENDIX B: DETAILED ANALYSIS

Operating System and Database Server Vulnerabilities

The Postal Service requires a patch management process to control the deployment
and maintenance of software releases and to resolve known security vulnerabilities.10
Additionally, administrators must manage changes to information resources and
configurations to ensure resources are not inadvertently exposed to unnecessary risk
and vulnerabilities.11 Further, system administrators must harden hardware and system
software to comply with Postal Service information security requirements.12

Operating Systems

For the xx operating systems included in our review, we identified xxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx as detailed in the
following table:

        Operating                          Systems With At Least          Unique High-Risk
                             Number
         System                                One High-Risk               Patch Related
                            Assessed
      Environment13                             Vulnerability              Vulnerabilities
         xxxxxxx                xx                   xx                         xxx
          xxxxx                  x                   x                           xx
          xxxxx                 xx                  xxx                          xx
          Total                 xx                  xxx                         xxx

 We aged each missing operating systems patch according to the date the operating
 system’s vendor made the most recent patch publicly available. As displayed in the
 following tables, vendors made a patch available to remediate 70 percent of the
 Windows and 63 percent of the xxxxxxxxxxxxxxxxxxxxxxxxx vulnerabilities at least
 1 year before December 15, 2009, the date we completed our automated assessment.

                                  xxxxxxx Patch Aging Schedule
                                 Age         Number     Percentage
                              < 30 Days          3           2%
                            31 – 180 Days       33          18%
                           181 – 365 Days       19          10%
                             > 365 Days        131          70%
                                                  14
                                Total         186          100%



10
   Handbook AS-805, Section 8-2.4, Configuration and Change Management.
11
   Handbook AS-805, Section 8-2.4.3, Change and Version Control.
12
   Handbook AS-805, Section 8-2.4.2, Configuration Hardening Standards.
13
   The operating system environment includes operating system and third-party application vulnerabilities.
14
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxx.




                                                     6
Network Security Assessment of                                                              IS-AR-10-007
 the National Customer Support Center



                                xxxxxxxxxx Patch Aging Schedule
                                Age          Number      Percentage
                             < 30 Days          1             1%
                           31 – 180 Days       23            18%
                          181 – 365 Days       23            18%
                            > 365 Days         81            63%
                                                  15
                               Total          128           100%

In addition, we identified:

        Two xxxxxx systems with xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx16 xxxxxxxx.
        Five xxxxxxx systems with xxxxxxxxxxxxxxxxxxxxxxxxx.
        Twenty-six systems xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
        Three xxxx systems xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
        One xxxxx system xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
        One system xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
        Sixty-two xxxxxxx operating systems that were xxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxx.
        xxxxxxxxxx operating systems xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxx.
        Five systems allowed xxxx17 xxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
        Four xxxx operating systems xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxx.
        Overall, we identified xx configuration-related vulnerabilities, as shown in the
         following table.

                                                          Unique High-Risk
                       Operating         Number
                                                        Configuration Related
                        System          Assessed
                                                           Vulnerabilities
                        xxxxxxx             xx                   xxx
                          xxxx               x                     x
                         xxxxx              xx                    xx
                         Total              xx                   xx




15
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxx.
16
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
17
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                   7
Network Security Assessment of                                              IS-AR-10-007
 the National Customer Support Center


Databases

We reviewed five Oracle database servers and identified the following xx unique
high-risk vulnerabilities.

      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxx.

We also identified:

      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxx.




                                           8
Network Security Assessment of                                 IS-AR-10-007
 the National Customer Support Center


                           APPENDIX C: MANAGEMENT’S COMMENTS




                                        9
Network Security Assessment of               IS-AR-10-007
 the National Customer Support Center




                                        10
Network Security Assessment of               IS-AR-10-007
 the National Customer Support Center




                                        11
Network Security Assessment of               IS-AR-10-007
 the National Customer Support Center




                                        12
Network Security Assessment of               IS-AR-10-007
 the National Customer Support Center




                                        13
Network Security Assessment of               IS-AR-10-007
 the National Customer Support Center




                                        14
Network Security Assessment of               IS-AR-10-007
 the National Customer Support Center




                                        15
